 OFFICE OF AUDIT
 REGION 3
 PHILADELPHIA, PA




    The National Foundation for Credit Counseling,
        Washington, DC, Generally Met HUD
    Requirements But Did Not Always Ensure That
    Home Equity Conversion Mortgage Counseling
              Requirements Were Met




2012-PH-1010                                 JULY 31, 2012
                                                        Issue Date: July 31, 2012

                                                        Audit Report Number: 2012-PH-1010




TO:            Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU
                //signed//
FROM:          John P. Buck, Regional Inspector General for Audit, Philadelphia Region,
                 3AGA


SUBJECT:       The National Foundation for Credit Counseling, Washington, DC, Generally Met
               HUD Requirements But Did Not Always Ensure That Home Equity Conversion
               Mortgage Counseling Requirements Were Met


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of the National Foundation for Credit
Counseling, Washington, DC.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
(215) 430-6729.
                                          July 31, 2012
                                          The National Foundation for Credit Counseling,
                                          Washington, DC, Generally Met HUD Requirements But
                                          Did Not Always Ensure That Home Equity Conversion
                                          Mortgage Counseling Requirements Were Met


Highlights
Audit Report 2012-PH-1010


 What We Audited and Why                    What We Found

We performed an audit of the National      The complaint alleging that the Foundation misused
Foundation for Credit Counseling           Federal funds could not be substantiated. The
based on a citizen’s complaint alleging    Foundation generally complied with HUD
that it misused Federal funds. Our         requirements when administering its housing
objective was to determine whether the     counseling program. However, it did not always
Foundation complied with U.S.              ensure that home equity conversion mortgage
Department of Housing and Urban            (HECM) counseling requirements were met.
Development (HUD) requirements             Specifically, it did not always ensure that HECM (1)
when administering its housing             counselors met eligibility requirements, (2)
counseling program.                        counseling expenditures were adequately supported,
                                           (3) counseling documentation requirements were
 What We Recommend                         followed, and (4) counseling funds were disbursed in
                                           a timely manner. The above conditions occurred
                                           because the Foundation did not have adequate
We recommend that HUD’s Deputy             monitoring procedures to ensure that subgrantees
Assistant Secretary for Single Family      complied with requirements.
Housing require the Foundation to (1)
remit to HUD from non-Federal funds
ineligible funds totaling $46,850, (2)
provide documentation demonstrating
that $28,771 was used for eligible
housing counseling expenditures or
repay HUD from non-Federal funds,
and (3) provide documentation
demonstrating that housing counseling
fees totaling $525 met housing
counseling documentation requirements
or repay HUD from non-Federal funds.
We also recommend that the
Foundation follow grant agreement
requirements, maintain documentation
to ensure that expenditures charged to
the grant are adequately supported, and
implement improved monitoring
procedures.
                           TABLE OF CONTENTS

Background and Objectives                                                    3

Results of Audit
      Finding 1: The Foundation Generally Met HUD Requirements But Did Not
      Always Ensure That HECM Counseling Requirements Were Met               4

Scope and Methodology                                                        8

Internal Controls                                                            9

Appendixes
A.    Schedule of Questioned Costs                                           11
B.    Auditee Comments                                                       12




                                          2
                         BACKGROUND AND OBJECTIVES

The National Foundation for Credit Counseling was founded in 1951. It is the Nation’s largest
and longest serving nonprofit credit counseling organization and one of the U.S. Department of
Housing and Urban Development’s (HUD) largest national housing counseling intermediaries. 1
The Foundation’s vision is to create a national culture of financial responsibility. Its mission is
to promote the national agenda for financially responsible behavior and build capacity for its
members to deliver the highest quality financial education and counseling services. The
Foundation has 109 member agencies and 855 community-based agency offices in the 50 States
and Puerto Rico. Foundation members provide financial, credit and housing counseling services,
and financial education to more than 2 million clients annually.

The housing counseling program was authorized by Section 106 of the Housing and Urban
Development Act of 1968. Section 106 authorizes HUD to provide, make grants to, or contract
with public or private organizations to provide a broad range of housing counseling services to
homeowners and tenants to assist them in improving their housing conditions and meeting the
responsibilities of tenancy or home ownership. The regulations prescribe the procedures and
requirements by which the housing counseling program will be administered. These regulations
apply to all agencies participating in HUD’s housing counseling program.

Between fiscal years 2 2009 and 2011, the Foundation entered into grant agreements with HUD to
carry out housing counseling activities. The Foundation received $9.6 million through HUD’s
Line of Credit Control System for its housing counseling program.

                                             Fiscal year Fiscal year Fiscal year                 Total funds
            Grants awarded                      2009        2010        2011                      awarded
    Comprehensive 3                           $1,623,570 $1,562,309    $791,404                    $3,977,283
    Home Equity Conversion
    Mortgage                                    1,845,711       2,455,967        1,140,919           5,442,597
    Loan review                                         0         150,000                0             150,000
                Totals                         $3,469,281      $4,168,276       $1,932,323          $9,569,880

Our audit objective was to determine whether the Foundation complied with HUD requirements
when administering its housing counseling program.




1
  A national intermediary is a HUD-approved entity that provides housing counseling services through its branches
or affiliates. It also provides administrative and supportive services to its network of affiliates or branches,
including but not limited to oversight, pass-through funding, training and technical assistance.
2
  October 1 through September 30
3
  Comprehensive counseling includes counseling for pre-purchase of home, mortgage delinquency prevention,
improvement of mortgage terms and home improvement, maintaining rental housing, reverse mortgage and
homeless assistance.

                                                        3
                                RESULTS OF AUDIT


Finding: The Foundation Generally Met HUD Requirements But Did
Not Always Ensure That HECM Counseling Requirements Were Met

The Foundation did not ensure that (1) 9 home equity conversion mortgage (HECM) counselors
who conducted 380 counseling sessions met eligibility requirements, (2) direct costs charged to
the grant were supported, (3) documentation requirements were followed, and (4) counseling
funds were adequately supported and disbursed in a timely manner. These conditions occurred
because the Foundation did not have adequate monitoring procedures to ensure that sub grantees
complied with requirements. As a result, there were no assurances that all grant funds were used
to properly counsel HECM clients.



 HECM Counselors Did Not
 Always Meet Eligibility
 Requirements

              The Foundation did not ensure that 9 counselors met eligibility requirements
              before conducting 380 housing counseling sessions. It paid 3 sub grantees
              $46,850 for 380 counseling sessions conducted by the 9 ineligible housing
              counselors.

              Regulations at 24 CFR (Code of Federal Regulations) 206.302 require that HECM
              housing counseling be provided by counselors listed on HUD’s HECM roster. To
              be placed on HUD’s roster, the housing counselor must meet eligibility
              requirements. The housing counselor must submit an application to HUD,
              successfully pass the standardized housing counseling examination, receive
              training and education, and have access to technology so that HUD can track the
              housing counseling results.

              We compared the names of 183 housing counselors to HUD’s roster to determine
              whether they were eligible to perform housing counseling. Nine of the counselors
              were not listed on the roster as required. These counselors were not on HUD’s
              roster because they failed the standardized HECM examination. The Foundation
              did not have adequate monitoring procedures in place to ensure that all HECM
              counselors met HUD requirements. Since the housing counselors did not meet
              eligibility requirements, the payments to them were ineligible.




                                               4
    Housing Counseling Direct
    Costs Were Not Always
    Supported


                   The Foundation charged $28,771 to its housing counseling grant although it could
                   not adequately support the direct cost. Paragraph E of the grant agreement
                   required the Foundation to maintain source documentation of direct costs, such as
                   invoices, receipts, canceled checks, and salary reports, to support payment
                   requests. 4 Although the Foundation provided the line of credit voucher request
                   form, it could not provide any other documentation to support direct costs totaling
                   $28,771. This occurred because the Foundation did not adhere to the grant
                   agreement requirements.

    Counseling Documentation
    Requirements Were Not Always
    Followed

                   The Foundation did not ensure that three sub grantees followed housing
                   counseling documentation requirements for six clients. The fiscal years 2009-
                   2011 grant agreements required housing counselors to perform and document
                   several activities. The grantee agreement required that at a minimum, the housing
                   counselor must perform and document these activities: (1) budget/financial
                   analysis, (2) discuss alternatives, and (3) follow-up. HUD Handbook 7610.1,
                   REV-5, required that a copy of the signed and dated HECM certificate be
                   maintained in the client files. We reviewed 28 client files to determine whether
                   they contained documentation supporting that housing counseling documentation
                   requirements were met. Of the 28 client files reviewed, 6 client files did not
                   contain a signed HECM certificate to ensure counseling requirements were met.

                   The sub grantee received $525 in HUD funds for six housing counseling sessions
                   that did not meet HUD requirements. This occurred because the Foundation did
                   not have adequate monitoring procedures in place to ensure that client files
                   contained the required documentation in accordance with HUD guidelines.

    Funds Were Not Always
    Disbursed in a Timely Manner

                   The Foundation did not disburse $136,470 in housing counseling funds in a
                   timely manner. The fiscal year 2010 grant agreement required that the
                   Foundation draw down only the amount of cash necessary to meet its actual
                   immediate cash needs. The Foundation was required to disburse the Federal
                   funds for allowable costs within 3 days of receiving the funds from HUD. It did

4
    Grant agreement number HC09-0012-003, article X, paragraph E

                                                       5
             not disburse the funds within the 3-day requirement and held them for more than
             6 months. HUD’s grant agreement requires that the Foundation disburse the
             funds in a timely manner to ensure that funds are not held for extended periods of
             time as well as to ensure that requested funds are supported.

             The Foundation requested Federal funds totaling $136,740 on August 31, 2011.
             As of December 2011, it had not disbursed the funds to three sub grantees. After
             we brought this matter to the Foundation’s attention, it followed up with the sub
             grantees. The Foundation received adequate support from two of the three sub
             grantees; however, the third sub grantee’s request totaling $120,000 was not
             adequately supported. Therefore, the Foundation did not disburse the funds, and
             in February 2012, it remitted Federal funds totaling $120,000 plus interest to
             HUD as required by its grant agreement.

Monitoring Procedures Needed
Improvement

             The Foundation was required by its grant agreement to monitor its sub grantees.
             As part of its monitoring procedures, the Foundation performed desk reviews of
             the housing counseling reimbursement requests submitted by its sub grantees.
             However, between fiscal years 2008 and 2011, it monitored only 21 of 68 (31
             percent) sub grantees. The remaining 47 sub grantees were not monitored.
             However, the Foundation did not have adequate documented monitoring
             procedures.

             In March 2011, HUD’s Office of Single Family Program Support reviewed the
             Foundation and found that its monitoring procedures needed to be improved. The
             Foundation stated that it would improve its monitoring procedures to include
             performing onsite reviews of all sub grantees within a 2-year period. Our audit
             determined that the Foundation needed to implement improved monitoring
             procedures to ensure that its sub grantees’ HECM counselors met eligibility
             requirements and provided housing counseling sessions that met HUD
             requirements.

Conclusion

             Although the Foundation generally met HUD requirements, it did not ensure
             housing counselors met requirements, direct costs were adequately supported and
             Federal funds were disbursed in a timely manner. The Foundation did not have
             adequate monitoring procedures to ensure that HUD requirements were met.
             Thus, there is an increased risk that housing counseling services provided did not
             meet HUD requirements. The Foundation should improve its monitoring
             procedures to ensure HUD requirements are met.



                                              6
Recommendations

          We recommend that HUD’s Deputy Assistant Secretary for Single Family
          Housing require the Foundation to

          1A.     Remit to HUD from non-Federal funds $46,850 in ineligible housing
                  counseling costs for the housing counselors that did not meet eligibility
                  requirements.

          1B.     Provide documentation to demonstrate that direct costs totaling $28,771
                  were used for eligible housing counseling expenditures or repay HUD
                  from non-Federal funds.

          1C.     Provide documentation to demonstrate that housing counseling fees
                  totaling $525 met housing counseling documentation requirements or
                  repay HUD from non-Federal funds.

          1D.     Follow grant agreement requirements and maintain documentation to
                  ensure that direct costs charged to the grant are adequately supported.

          1E.     Implement improved monitoring procedures to ensure that sub grantees’
                  housing counselors meet eligibility requirements and provide housing
                  counseling sessions that meet HUD requirements. At a minimum, the
                  monitoring procedures should include procedures to ensure that (1)
                  HECM counselors meet eligibility requirements, (2) adequate
                  documentation is maintained to support housing counseling sessions
                  provided, and (3) sub grantees are consistently monitored.




                                            7
                         SCOPE AND METHODOLOGY

We performed our audit work from October 2011 to May 2012. The audit period covered
October 2008 through October 2011. We performed our work at the Foundation’s offices
located Washington, DC, and our office in Baltimore, MD.

To accomplish our audit, we

   •   Reviewed applicable Federal regulations at 24 CFR Parts 206 and 214, and other HUD
       housing counseling requirements and notices;

   •   Interviewed Foundation officials and housing counseling specialists;

   •   Reviewed housing counseling grant agreements for fiscal years 2008-2011;

   •   Interviewed HUD Office of Single Family Housing staff and reviewed its monitoring
       reports;

   •   Reviewed financial statements, housing counseling voucher request forms, and
       independent audit reports;

   •   Reviewed $2.78 million in housing counseling grant funds disbursed and randomly
       reviewed 28 housing counseling client files; and

   •   Reviewed the Foundation’s monitoring procedures for its housing counseling program.

From October 1, 2008, to September 30, 2011, the Foundation received $9.6 million in Federal
housing counseling funds. We selected the three highest amounts of funds received from its
three HUD housing counseling grants. We reviewed $2.78 million awarded to 68 sub grantees.
Additionally, we selected and reviewed 28 client files for 7 sub grantees that received the highest
amount of housing counseling grant awards. We reviewed the training and experience of 183
HECM counselors and 228 comprehensive housing counselors.

To achieve our audit objective, we relied in part on computer-processed data. The data included
the Foundation’s housing counseling expenditures and other computer-generated data. Although
we did not perform a detailed assessment of the reliability of the data, we did perform a minimal
level of testing and found the data to be adequate for our purposes.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides reasonable basis for our findings
and conclusions based on our audit objective.



                                                 8
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

               •   Compliance with laws and regulations - Policies and procedures that
                   management has implemented to reasonably ensure that resource use is
                   consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

               The Foundation did not ensure that

               •   Housing counselors met eligibility requirements,

               •   Direct cost charged to the grant were adequately supported,


                                                 9
•   HECM documentation and other grant documentation requirements were met,
    and

•   Counseling funds were disbursed in a timely manner.




                               10
                                   APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS
                 Recommendation
                                        Ineligible 1/      Unsupported 2/
                     number
                       1A                 $46,850
                       1B                                      $28,771
                       1C                                          525
                     Totals               $46,850              $29,296


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             11
Appendix B

             AUDITEE COMMENTS




                    12
13
